No. 19-765

In the Supreme Court of the United States
MICHAEL FAUST, in his official capacity as Director of
the Arizona Department of Child Safety,
Petitioner,
v.
B.K., by her next friend Margaret Tinsley, et al.
Respondents.
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH
CIRCUIT

BRIEF OF AMICUS CURIAE SECRETARIES’
INNOVATION GROUP IN SUPPORT OF
PETITIONER
John J. Bursch
Counsel of Record
BURSCH LAW PLLC
9339 Cherry Valley
Ave SE, #78
Caledonia, MI 49316
(616) 450-4235
jbursch@burschlaw.com
Counsel for Amicus Curiae

i
TABLE OF CONTENTS
Table of Authorities.................................................... ii
Interest of Amicus Curiae ...........................................1
Introduction and Summary of Argument ...................2
Statement ....................................................................4
Arizona’s child-welfare system .............................4
How class-action litigation controls state
child-welfare systems .....................................9
Argument ................................................................... 13
I.

A public-law complaint alleging a
government agency’s “systemwide failures” is
insufficient to satisfy Rule 23(a)(2)’s
commonality requirement. ................................. 13

II. Allegations of a child-welfare agency’s
“systemwide failures” are insufficient to
satisfy Rule 23(b)(2)’s common-injury
requirement......................................................... 20
Conclusion ................................................................. 24

ii
TABLE OF AUTHORITIES
Cases
Brown v. Board of Educ.,
347 U.S. 483 (1954) ............................................. 16
Deshaney v. Winnebago Cnty. Dep’t of Soc. Servs.,
489 U.S. 189 (1989) ............................................. 14
Horne v. Flores,
557 U.S. 433 (2009) ............................................. 22
Lindsey v. Normet,
405 U.S. 56 (1972) ............................................... 14
Obergefell v. Hodges,
135 S. Ct. 2584 (2015) ......................................... 14
San Antonio Indep. Sch. Dist. v. Rodriguez,
411 U.S. 1 (1973) ................................................. 14
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011) ...............................................3
Rules
Fed. R. Civ. P. 23 ............................................... passim
Sup. Ct. R. 37...............................................................1
Other Authorities
John Bursch & Maura Corrigan, Rethinking
Consent Decrees, Am. Enter. Inst. (June
2016), https://bit.ly/35849bv ............................... 12
Abram Chayes, The Role of the Judge in Public
Law Litigation, 89 Harvard L. Rev. 1281
(1976) ................................................................... 16

iii
Richard L. Marcus, Public Law Litigation and
Legal Scholarship, 21 U. Mich. J. L. Reform
647, 691 (1988) .................................................... 16
Charles A. Reich, The New Property,
73 Yale L.J. 733 (1964) ....................................... 14
Ross Sandler & David Schoenbrod,
Democracy By Decree 98 (2003) ................. passim

1
INTEREST OF AMICUS CURIAE1
The Secretaries’ Innovation Group is a membership
organization of state human service and workforce
secretaries. The Group exchanges state program
innovations for national solutions that favor healthy
families, work, economic self-reliance, budget responsibility, and limited government.
The Group’s members are comprised of current and
former Secretaries of human service and workforce
agencies (sometimes titled Directors or Commissioners). Members gather to learn of successful innovations
that have been executed “on the ground,” to hear of
new opportunities to design or replicate initiatives that
advance the goals of family health and self-reliance, to
form options for waivers and other administrative
vehicles for state freedom of action, and to consider and
approve actions that advance the policies of limited
government and state autonomy.
The Secretaries’ Innovation Group has a strong
interest in this case because it involves a publicinterest law firm that files serial lawsuits against state
child-welfare systems, seeking to impose federal-court
consent decrees or injunctive orders that inevitably
result in long-term court monitoring and a loss of state
sovereignty. The Group respectfully requests that this
Court grant the petition and reverse the district court’s
order certifying this case as a class action.
1 Pursuant to

Supreme Court Rule 37.6, amicus curiae state that
this brief was not authored in whole or in part by counsel for any
party, and that no such counsel or party made a monetary
contribution to fund the preparation or submission of the brief. In
accord with Rule 37.2, all parties were timely notified and have
filed blanket letters of consent to the filing of amici briefs.

2
INTRODUCTION AND SUMMARY OF
ARGUMENT
Class actions can be a useful and effective tool for
institutional reform. But unless courts are careful in
how they allow litigants to wield this tool, class actions
can also be weapons of great destruction that reduce
state sovereignty and place the levers of government in
the hands of courts, third-party monitors, and lawyers.
Outside of prison litigation, few areas of state
government have been more adversely impacted by
improper class proceedings than child-welfare systems.
In a 2000 study, the national Center for Youth Law
identified some 57 child-welfare institutional-reform
lawsuits involving 36 states, with consent decrees
governing at least 35 of the lawsuits. These classaction lawsuits have now reached legendary status. A
class-action consent decree involving the Connecticut
Department of Children and Families has been in place
for 29 years. A similar class-action in the District of
Columbia resulted in a court order that has governed
the District’s child-welfare system for nearly as long.
The consent decree involving Maryland’s foster
program has been in place for more than 30 years. And
in New Jersey, where the Division of Children and
Families has received numerous national awards, the
State has been operating under a class-action consent
decree for 16 years, with no end in sight.
These types of actions come with a significant cost.
They hamstring child-welfare systems, binding them to
court-enforced rules that may not benefit an individual
child or sibling group. For example, depending on
individual circumstances, a residential-care setting
may be the most appropriate placement for a

3
particular child with individualized needs. Yet a classaction consent or injunctive decree—especially a decree
following the one-size-fits-all model of Respondents’
class counsel—is likely to limit or prohibit the use of
such facilities, despite the child’s best interests.
Or a child removed from parental care and placed
in state custody may have a serious need for
psychotropic medications—those that can affect a
child’s mind, emotions, and behavior. (Such
medications are common to treat everything from
Attention Deficit Disorder to a Bipolar Disorder.) But
under class counsel’s cookie-cutter approach to
reforming child-welfare systems, it is likely that
further dispensation of such medications will require
consent from the same parent whose abuse or neglect
resulted in the removal.
These and other examples show that class actions
are wholly inappropriate vehicles for dealing with
children who are not uniform in their needs and who
are impacted in different ways by a child-welfare
system’s alleged “failures.” When such actions are filed
against state agencies, as here, courts must take
particular care to ensure that Fed. R. Civ. P. Rule 23’s
commonality and uniformity requirements are
satisfied. This is the “one stroke” requirement that this
Court has articulated as being indispensable to class
practice. Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338,
350 (2011). Yet the Ninth Circuit’s lax standard for
class certification allows serial plaintiffs’ lawyers to
undermine state officials and impose their own
policies, with the result that the lawyers—with the
assistance of courts and monitors—run the system.
The Court should grant the petition and reverse.

4
STATEMENT
Arizona’s child-welfare system
The petition explains how the Great Recession
resulted in an explosion of Arizona’s out-of-home foster
population, and the many steps the State has taken to
improve its provision of foster-care services and to
protect children in care. Pet. 5–6. Those improvements
have resulted in numerous accolades and praise. Id. 6–
7. But, notwithstanding stories of individual cases on
which Respondents’ counsel rely to claim systemwide
failure, even the petition understates how well the
overall system has performed relative to the rest of the
country.
The U.S. Department of Health and Human
Services (DHS) manages a program, known as the
Child and Family Services Reviews (CFSR), which is
structured to assist states, the District of Columbia,
and territories to identify strengths and areas of
needed improvement within their child-welfare
agencies. The most recent review, Round 3, analyzed
the baseline performance of all 50 states, the District of
Columbia, and Puerto Rico during the 2013 fiscal year.
The review covered seven different categories related
to child safety, permanency of placements, and time in
state custody. DHS then calculated a risk-adjusted
performance for each jurisdiction based on the
population of children being served, and the
Department compared that adjusted score to the
“national standard,” which the Department set based
on the performance of all jurisdictions. For a
jurisdiction with a risk-adjusted performance that fell
below the national standard, the Department created a
program improvement plan called a “PIP” goal.

5

In 2013, Arizona was still in the very first stages of
its multi-year effort to redesign its child-welfare
system. In fact, the Arizona Department of Child
Safety was not even created until 2014. Nevertheless,
Arizona’s 2013 performance compares favorably with
other jurisdictions and does not support the allegation
that Arizona exposed children in foster care to an
unreasonable risk of harm.2
With respect to maltreatment in care, Arizona
performed exceptionally well. Its raw score (2.36)
placed the state as 7th best in the nation for child
safety among children in foster care. After accounting
for the system’s population, Arizona’s risk-adjusted
performance (3.37) made it the 5th safest foster system
in the nation. This standard of safety is even more
impressive given that the states with the best
performance in all categories are typically those with
the smallest population of children in care. For
example, the six jurisdictions whose raw
maltreatment-in-care score ranked ahead of Arizona
averaged 4,877 children served over the baseline year;
Arizona served 22,408 children in that period. There
are no other jurisdictions of comparable size with a
child-safety performance that is even close to Arizona’s.
Unsurprisingly, DHS did not create a PIP goal for
Arizona regarding maltreatment in foster care.

2 The following comparisons are made with data obtained from the

CFSR Round 3 Review, made available to all the states. See
generally
https://www.acf.hhs.gov/cb/monitoring/child-familyservices-reviews/round3.

6
Arizona also scored quite well in DHS’s second
measure of child safety, the recurrence of maltreatment. Arizona’s raw score (5.3%) was the 13th best
performance in the nation, well under the national
standard. Arizona’s risk-adjusted performance (6.9%)
was also 13th best among all jurisdictions. In fact,
when compared to the national standard (9.1%),
Arizona’s risk-adjusted performance was approximately 25% better. In other words, when measured
against a theoretical “model” jurisdiction, Arizona’s
children were 25% more safe. Again, it was
unnecessary for DHS to create a PIP goal for Arizona
with respect to recurrence of maltreatment.
Placement stability measures the average number
of placements for all children who entered foster care
within a 12-month period. Arizona’s raw score (3.46)
was tied for 12th best in the nation. Its risk-adjusted
performance (3.53) was 14th best. When compared to
the national standard (4.12), Arizona’s risk-adjusted
performance means that children in Arizona’s system,
on average, experienced 14% fewer placements than a
theoretical “model” jurisdiction. Again, it was
unnecessary for DHS to create a PIP goal for Arizona
with respect to placement stability.
The re-entry metric measures the percentage of
children who, after being returned to their home or
placed in a new, permanent home, re-enter state care.
In this category, Arizona’s performance was at the
national average. Its performance (8%) ranked 28th
best, and its risk-adjusted performance (7.9%) ranked
26th. Because the risk-adjusted performance was
better than the national standard of 8.3%, it was again
unnecessary for DHS to create a PIP goal.

7
The permanency metric measures how quickly a
child in state care is returned to his or her home or
another permanent placement (e.g., adoptive parents).
DHS measures a jurisdiction’s performance by
examining the percentage of children who experience
permanency within 12 months in three separate
cohorts: (1) children in care for 12 months, (2) those in
care for 12-23 months, and (3) those in care for 24+
months.
Arizona’s performance in permanency for children
in care for 12 months is the one CFSR Round 3
category where the state failed to meet the national
standard. 30.5% of children in this cohort had permanent placements within 12 months, and Arizona’s
adjusted performance was 28.5% compared to the
national standard of 40.5%. DHS set a PIP goal of
32.1%, which means that Arizona had to improve its
permanency metric for this cohort by approximately
12.65% to satisfy the federal government.
Significantly, however, Arizona’s performance was
outstanding for the next two cohorts. For those
children in care 12-23 month, 53.1% had a permanent
placement within 12 months, good for 7th best in the
nation. Arizona’s risk-adjusted performance (50.9%)
was also tied for 7th best in the nation. Arizona was
well above the national standard of 43.6% and
accordingly did not have a PIP goal.
Similarly, for those children in care 24+ months,
40.6% had a permanent placement within 12 months,
which was 6th best in the nation. Arizona’s riskadjusted performance (37.7%) was tied for 4th best in
the nation. Arizona was well above the national
standard of 30.3% and did not have a PIP goal.

8
The permanency takeaway is that while Arizona
does not permanently place as many children as it
would like for children in care 12 months or less, it
makes up that lost ground in its exceptional
performance for children in care for 12-23 months and
for more than 24 months. These statistics do not show
a population of children at risk of unreasonable harm;
they show a system that is thorough and methodical in
placements. And given the structural and policy
improvements and the massive number of dollars that
have flowed into Arizona’s child-welfare system since
2013, the state’s performance today is already
improved. As noted, during the CFSR Round 3,
children in Arizona’s system had a 30.5% permanentplacement rate within 12 months. In fiscal years 2017,
2018, and 2019, that figure jumped to 60.8%, 61.2%,
and 59.6% respectively. FY20 Monthly Operational
Outcomes Report, available at https://bit.ly/36TxTKj.
It is significant that Arizona satisfied six of the
seven CFSR Round 3 national standards even at a time
that Respondents allege Arizona was in “systemwide
failure.” Only four states with very small foster
systems satisfied all seven standards. No jurisdiction
with a foster system of a size comparable to Arizona’s
satisfied every national standard. Yet, despite
Arizona’s comparatively high performance, using
objective, federal-agency data, Respondents filed this
class action. If Arizona can perform so well and still be
sued, then every state child-welfare agency, no matter
how high performing, is vulnerable to an expensive,
high-stakes lawsuit at the whim of plaintiffs or
attorneys who want to further their own agendas and
control public policy.

9
How class-action litigation controls state childwelfare systems
Because of low class-certification standards and
minimal resistance by defendant government officials,
there are numerous instances where federal courts
have entered consent decrees that have governed childwelfare systems for decades. To be sure, consent
decrees sometimes have their intended effect by
focusing government officials on a problem that needs
to be solved. But it is telling that despite the use of
numerous class-action consent decrees to govern childwelfare systems over the past several decades, only
three states have ever managed to exit:
Connecticut: Juan F. v. Malloy (28 years).
Litigation was filed in December 1989 and settlement
reached in January 1991. The current exit plan
(approved in July 2006) contains 22 outcome measures
that all must be met and sustained for six months
before exit.
District of Columbia: LaShawn A. v. Gray (27
years). Plaintiffs filed a complaint in 1989 which
resulted in a court-ordered decree in 1993. The current
implementation plan has been in place since December
2010 and includes approximately 92 separately
measured exit standards divided into outcomes to be
achieved and outcomes to be maintained.
Georgia: Kenny A. v. Deal (15 years). Litigation
was filed in 2002 and a consent decree entered in 2005.
The modified agreement currently in place contains 29
outcome measures that must be achieved simultaneously for three consecutive periods before exit.

10
Illinois: Multiple (41 years). Illinois currently
operates
under
more
than
10
consent
decrees/settlement agreements related to the childwelfare system. There are several coordinators and
monitors embedded within the Department of Children
and Family Services to oversee and monitor
compliance.
Maryland: L.J. v. Massinga (32 years). Litigation
was filed in 1984 on behalf of Baltimore children
placed in Maryland’s foster-care program. The parties
entered an initial consent decree in 1988, with the
intent that it would be complete in two years. Twentyone years later, in 2009, the parties entered a modified
consent decree. Exit from court supervision is not
available until Maryland has complied with all
commitments for 18 consecutive months.
Michigan: Dwayne B. v. Snyder (14 years).
Plaintiffs filed their lawsuit in 2006, and the parties
entered a consent decree in 2008 that was modified in
2011 and again at the end of 2015. The current
agreement includes 11 outcome measures to be
maintained and 56 measures to be achieved, with
various measures rolling to exit when achieved for
specified timeframes.
Mississippi: Olivia Y. v. Barbour (12 years).
Litigation was filed in 2004 and a consent decree
entered in 2008. Modified settlement agreements were
finalized in 2012 and in 2016 in response to the
plaintiffs’ motions for contempt and the appointment of
a receiver for the entire system.

11
New Jersey: Charlie and Nadine H. v. Christie
(16 years). Litigation was brought in 1999, a first
consent decree was entered in 2004, a modified
settlement agreement was entered in 2006, and a
sustainability and exit plan was entered in late 2015.
The 2015 plan contains 48 outcome measures to be
maintained or to be achieved before exit. Despite
meeting a high percentage of these outcomes and
receiving numerous national awards for the quality of
services provided to New Jersey children, New Jersey’s
Department of Children and Families continues to be
hamstrung by the consent decree.
New York: Marisol A. v. Giuliani; Elisa W. v. New
York City (22 years). The Marisol A. class-action
lawsuit was filed against the City and State of New
York in 1995, and the parties approved a consent
decree in 1998. Although the parties terminated
monitoring, the court retained authority to issue
injunctions and award damages. While the city has
increased its foster-care system’s budget by $100
million over the past two years, the Elisa W. classaction lawsuit was filed in early 2015 against the City
and State of New York, and the state recently settled
and agreed to the entry of another consent decree
requiring the appointment of another monitor.
Ohio: Roe v. Staples (30 years). Plaintiffs filed
their lawsuit in 1983, a consent decree was entered in
1986, and a modified decree was entered in 2006.
Substantive provisions include requirements involving
needs assessments, case plans, placement, visitation,
and service. Ohio finally resolved the monitoring
component of the decree in 2015, 30 years after
execution of the initial decree.

12
Oklahoma: D.G. v. Yarbrough (8 years). The
lawsuit was filed in 2008, and the court approved the
parties’ consent decree in 2012. The consent-decree
monitors are, twice per year, to assess the state’s “good
faith efforts” to comply with the goals of the decree.
South Carolina: Michelle H. v. Haley (4 years).
Litigation was initiated in January 2015 and a
settlement reached in early 2016. The consent decree
requires the state to satisfy dozens of provisions
relating to caseloads, investigations, placements,
visitation, and health care.
Wisconsin: Jeanine B. v. Walker (18 years). A
lawsuit was filed against the Governor of Wisconsin on
behalf of all Milwaukee children in child-welfare
custody, with a final settlement reached in 2002. The
city remains under court supervision because the
program has yet to satisfy the final unfilled settlement
requirement regarding number of placements.
In many of these cases, as in Arizona, substantial
system improvements have been made. But those
improvements were just as likely to come from government officials as plaintiffs’ attorneys. And more money
could have been allocated to program improvement but
for litigation costs. (For example, as of 2016, Michigan
had paid more than $10 million to plaintiffs’ attorneys
and monitors and continues to pay the monitors more
than $1.5 million annually. John Bursch & Maura
Corrigan, Rethinking Consent Decrees, Am. Enter. Inst.
(June 2016), https://bit.ly/35849bv.) By allowing state
officials to direct the change instead of the courts, the
improvements would likely have come more quickly
and efficiently—and more carefully tailored to meet the
needs of each individual child in the system.

13
ARGUMENT
Despite best intentions, class-action practice
involving child-welfare systems has been a mess. And
the primary reason for this outcome—and the many
decades of court supervision that have resulted—is
because federal district courts fail to take class-action
standards seriously. When a court ignores Rule
23(a)(2)’s commonality requirement by allowing a class
to be certified based on alleged “systemwide failures,”
the remedy is a consent decree or injunction that
demands systemwide solutions rather than carefully
reticulated relief for a specific child in need. The same
is true when a court ignores Rule 23(b)(2)’s requirement of a common injury that can be remedied by a
single injunction.
The types of harm alleged in these cases looks
nothing like a product-liability action or a class-based
employment action that stems from a single, unlawful
policy, such as how to calculate retirement benefits.
The harms are necessarily individualized and depend
on the unique circumstances of each child. The Court
should grant the petition and reverse the precipitous
class-certification decision here.
I.

A public-law complaint alleging a government agency’s “systemwide failures” is insufficient to satisfy Rule 23(a)(2)’s commonality
requirement.

In the earliest days of our country, citizen lawsuits
against the government were primarily limited to
instances where the government had wrongly taken
something from the plaintiff, such as property, a
contract right, or some other property-based right.

14
Ross Sandler & David Schoenbrod, Democracy By
Decree 98 (2003). In fact, until quite recently, this
Court had always barred plaintiffs from using the Due
Process Clause to claim a fundamental right to force
the government to give them something in the form of
status or benefits: “[T]he Due Process Clause generally
confers no affirmative right to governmental aid, even
where such aid may be necessary to secure life, liberty
or property interests.” Deshaney v. Winnebago Cnty.
Dep’t of Soc. Servs., 489 U.S. 189, 196 (1989).
“Although the liberty protected by the Due Process
Clause affords protection against unwarranted
government interference,” it does not confer an
entitlement to such [governmental aid] as may be
necessary to realize all the advantages of that freedom.
Id. (emphasis added). Accord, e.g., Lindsey v. Normet,
405 U.S. 56, 74 (1972) (rejecting claim for a positive
right to a homeless shelter); San Antonio Indep. Sch.
Dist. v. Rodriguez, 411 U.S. 1, 35 (1973) (rejecting
claim for a positive right to a public education. But see
Obergefell v. Hodges, 135 S. Ct. 2584 (2015) (requiring
state governments to give recognition, status, and
benefits to same-sex couples).
As government grew and dispensed ever-increasing
benefits to provide things like welfare, education,
housing, and health care, citizens began to sue over
how the government distributed and administered
these benefits. The new “entitlement” sentiment
crystallized in an article that the Yale Law Journal
published in 1964. Charles A. Reich, The New Property,
73 Yale L.J. 733 (1964). The article asserted that these
new government benefits, “the new property,” were as
important to citizens and the legal system as when the
government unlawfully took private property. So, the

15
article concluded, courts should give equal weight to a
citizen who claims a government benefit as to someone
the government forced to relinquish a house or land.
But there is a substantial difference between the
two types of litigation. Violation of a private property
right is easy to identify and remedy. Democracy By
Decree, pp. 104–05. If the government takes private
property, the courts order the government to give it
back or pay compensation. If the action is a breach of
contract, damages are awarded to place the nonbreaching party in the position she would have been in
but for the breach.
In contrast, soft rights, such as a right to “clean”
water, an “adequate” education, or a “safe” childwelfare system involve positive rights; they tell the
government what to do, rather than what not to do.
Democracy By Decree, pp. 104–05. Problematically,
these positive rights are aspirational and frequently
impossible to fully vindicate in a world of limited
resources. And public officials have trouble knowing
how to obey a court order that enforces such rights. Id.
For example, New York City’s public officials have
spent decades trying to comply with a court-enforced
consent decree that required the city to provide a free
appropriate education for all children with disabilities.
Democracy By Decree, p. 105. Despite growing the
city’s special-education budget from $434 million to
$2.685 billion over a 20-year period, the city remained
under court supervision, notwithstanding the fact that
the city’s per-capita expenditures on special-education
students were nearly four times higher than on
general-education students ($50,698 per specialeducation student versus $13,802 per general-

16
education student in fiscal year 2015. NYC Dept. of
Educ. System Wide Report #2 for Fiscal Year 2015:
Function By Student Type—Public Schools Only,
available at https://on.nyc.gov/2RfQqK1.)
In 1976, as plaintiffs’ attorneys and judges
continued to push for ever-more-sweeping court
supervision of state and local governments, the
Harvard Law Review published what remains one of
the most comprehensive defenses of the practice:
Abram Chayes, The Role of the Judge in Public Law
Litigation, 89 Harvard L. Rev. 1281 (1976). In it,
Professor Abram Chayes contrasted the old way of
doing things, so-called “private law litigation,” with the
new trend, which he named “public law litigation.”
Democracy By Decree, p. 114. In Chayes’ view, courts
were often better than elected officials at resolving
policy problems and would frequently produce better
outcomes. Id. at 115. And at the time, Chayes’
conclusion mirrored public perception. After all, the
public was widely supportive of this Court’s decision in
Brown v. Board of Education, 347 U.S. 483 (1954), and
its progeny that successfully desegregated the public
schools.
But “Chayes’s impressionistic article [wa]s almost
bereft of either usable doctrinal analysis or reliable
empirical proof.” Richard L. Marcus, Public Law
Litigation and Legal Scholarship, 21 U. Mich. J. L.
Reform 647, 691 (1988). Though frequently cited, the
article’s “success seems to have depended on gut
reactions” rather than hard data. Id. Most problematic,
Chayes misunderstood the role of the judge in publiclaw litigation.

17
Policy choices require reams of information and the
balancing of competing interests—quintessential
legislative functions. Since courts lack the time and
capacity to fulfill the legislative role (not to mention
the lack of constitutional authority), they tend to shift
the policy-making function to the parties by
encouraging them to consent to a court-supervised
decree. These result in what the authors of Democracy
by Decree have called “the controlling group”—
consisting of plaintiff lawyers (like counsel to
Respondents here), their experts, and court-appointed
masters or monitors, among others. Democracy By
Decree, p. 118. This controlling group undermines
Chayes’ assumption that judges are calling the shots:
[Chayes] wrote in 1976 that judges, moderated
by the inherent conservatism of the judicial
community, would base public policy on
reasoned and principled decision making. This
ideal is rarely achieved. The bulk of the court
orders in institutional reform cases result from
bargains that, like the legislation they most
resemble, are not necessarily logical or
principled. When a proposed order is submitted
for judicial signature on consent of the parties,
judges are freed from having to choose among
policies and can remain true to a still powerful
judicial culture based on the separation of
powers, which expects judges to let elected
officials manage government. . . . The judge
anoints the controlling group and keeps it
going by pressuring the parties and holding
the defendants and their successors in office to
the bargain. [Id. at 119.]

18
And once the controlling group has achieved entry
of an initial consent decree, what the law requires no
longer matters. The statutory or constitutional “legal
hook” that was the impetus for the decree falls away,
and the law becomes “what[ever] the controlling group
says it is.” Democracy By Decree, p. 123. Agreed-upon
plans that fail to work are toxic. The public officials
charged with compliance can be held in criminal
contempt if they attempt to deviate from the plan. And
woe to the public official who seeks to modify the
decree. Judges and plaintiffs’ attorneys analogize
consent decrees to contracts, and “[j]udges resist
allowing modifications unless plaintiffs’ attorneys
consent, even if the term sought to be modified is
unnecessary to correct a violation of law.” Id. at 127.
All of this is exactly the type of environment that
Respondents are asking the federal courts to create for
Arizona’s child-welfare system. Based on allegations of
“systemwide failures” to which every class member is
“exposed” simply by virtue of being in the system, they
demand a court order—likely in a form identical to the
one Respondents’ counsel has used for other state
child-welfare systems—that will address alleged
problems that individual class members may not have
in common.
For example, Respondents alleged that Arizona’s
Department of Child Safety overuses congregate care.
Though not preferred as a blanket policy, a childwelfare agency’s use of congregate care violates no
federal law and does not represent a total disregard of
professional judgment. When a child-welfare system
experiences a sudden influx of children in care, a
congregate-care setting may be the only realistic

19
alternative to leaving children with their abusive
parent or other caregiver. It is simply not possible to
say that every child in congregate care shares an
injury in common with every other child in congregate
care, much less with every child in a child-welfare
system. Yet that is precisely the type of allegation the
lower courts accepted in granting class certification.
Or consider Respondents’ claim that Arizona’s
Department of Child Safety fails to ensure that all
children in its care are receiving adequate behavioralhealth services. The federal government concluded that
the Department assessed and provided such services
83% of the time in 2013, 89% of the time in 2014, and
87% of the time in 2015, and that the provision of
services “to meet children’s mental health needs was a
strength in 87% of cases.” Annual Progress and
Services Rpt. (APSR) for FFY 2017, p. 80 (Pls.’ Mot. for
Class Certification, Ex. 36). If an individual child has
consistently been denied services, she or he might have
a claim. But to allege that an unidentified 15% of the
class did not receive the same timely treatment as the
other 85% of the class is to define lack of commonality.
It also ignores the reasons why some class members
did not receive such services, what their individualized
needs are, and whether they have even been harmed
by the Department’s policies and practices.
In sum, Respondents assert amorphous claims that
the Department’s allegedly unconstitutional policies or
practices constitute a violation of the putative class’s
substantive-due-process rights. But it is impossible to
say that any two members of the class have anything
in common. By definition, a child-welfare population is
made up of children with individual circumstances.

20
Their needs are different. Their placements are
different. And their treatment plans must be different.
By ignoring these differences, the Ninth Circuit
deepened a circuit split and nullified Rule 23(a)(2)’s
commonality requirement. That ruling will have longterm negative consequences not only for Arizona, but
for institutional-reform litigation around the country.
II. Allegations of a child-welfare agency’s
“systemwide failures” are insufficient to
satisfy Rule 23(b)(2)’s common-injury
requirement.
For many of the same reasons, Respondents’
allegations of a child-welfare “systemwide failure” do
not show a common injury that a single consent decree
or injunction can effectively remedy. Indeed, childwelfare consent decrees are designed to ignore
individualized remedies.
Nearly every child-welfare consent decree involving
Respondents’ counsel dictates certain caseload ratios,
such as 12 children or families for every caseworker (or
something similar). Such a provision locks in a singlecaseworker-for-a-single-child practice and precludes
other practices that might provide better services to
children. For example, certain children in the
Respondent class may be better served with a small
team of workers who can collaborate to assure that the
child’s needs are being met. But Respondents’ counsel’s
one-size-fits-all approach does not contemplate that
such children may require that remedy.

21
The ratio also ignores different job responsibilities,
support systems, and other features that distinguish
one child-welfare system from another, not to mention
innovations and efficiencies that constantly affect the
number of cases that a case manager is able to capably
handle. It is like comparing the productivity of
someone who has a typewriter to someone who has a
computer with Microsoft Word and a laser printer,
then imposing the same productivity standard on both
of them. Yet Respondents’ counsel pretends that there
is a national caseload “standard” (largely imposed in
other states by Respondents’ own consent decrees) that
Arizona does not meet.
Some decrees in other states also contain requirements addressing psychotropic medications. For
example, Michigan’s child-welfare agency must ensure
that informed consent is obtained and documented in
writing in connection with each psychotropic
medication prescribed to a child in the agency’s
custody. But if a child is in custody, it is almost always
because the child has been abused or neglected by his
or her parent, and the only person who can provide the
consent is that parent. While there are workarounds,
they result in harmful delays in dispensing these
important medications. Respondents’ claims ignore
that one child’s injury could be the unnecessary
dispensation of psychotropic medications—militating
in favor of a consent requirement—while another
child’s injury may be a delay in receiving such
medications—counseling against a consent requirement. There is no common injury, so there can be no
common remedy.

22
Similarly, nearly every child-welfare consent
decree contains requirements regarding the CFSR
standards noted above, two related to safety and five to
permanency. Only four, very small states were in
compliance with all seven factors at the time the
federal government conducted its review. (In the view
of Respondents’ counsel, essentially every state childwelfare program in the country should be governed by
plaintiffs’ lawyers and court-appointed monitors rather
than government officials.) More important, these
standards sometimes work against each other. For
example, when a state places children in permanent
homes quickly, those children may rebound to state
custody at a higher rate than a state that places
children in permanent homes in a more deliberative
fashion. But a consent decree or injunction will likely
force the state to make quicker placements. This may
remedy a child who has been injured by a longer period
in state care. But it may harm a child who suffered no
injury until the court order forced a change in
placement status.
In these and countless other examples, class-action
court orders in the child-welfare context invariably
lead to a uniform remedy that helps some children
while hurting others. That is because, having litigated
the class claims based on alleged systemwide failures,
the litigation has failed to account for the fact that
every child is unique and does not suffer a common
injury from agency policy. It is quite possible a given
child will have suffered no injury at all—until a cookiecutter court order has inflicted it.

23
These problems are exacerbated by the fact that
federal district courts routinely overlook this Court’s
holding in Horne v. Flores, 557 U.S. 433 (2009), that if
a state agency is complying with federal law and has
corrected the violations that resulted in a consent order
or injunctive order, then the order should be vacated,
even if the agency has not dotted every ‘i’ and crossed
every ‘t’ in the order. Id. at 452 (quotation omitted)
(“[W]hen the objects of the decree have been attained,
responsibility for discharging the State’s obligations
[must be] returned promptly to the State and its
officials.”). This means that lack of precision at the
class-certification stage results in the type of sledgehammer-rather-than-scalpel consent decrees discussed
above—decrees that are not tailored to the individual
child and that last for many decades.
In sum, institutional-reform litigation aimed at
child-welfare systems is not just a matter of taking
control away from state and local officials. It has reallife consequences that often present officials with a
Catch 22: do what is best for a child and place the
government in a position where it is defying a court
order, or follow the court’s directive at the expense of a
child’s best interests. No caseworker should be put in
that position. And reigning in overbroad class certification in this context will go a long way toward preventing that problem in the first instance. If courts adhere
to Rule 23’s exacting requirements, it is far more likely
that remedies will be tailored to specific children’s
needs rather than to purported “systemwide improvement” that ignores individualization. This case is an
ideal vehicle to clarify the importance of commonality
and common injury in class-action public-interest
litigation and to put children’s interests first.

24
CONCLUSION
The Court should grant the petition.
Respectfully submitted,
John J. Bursch
Counsel of Record
Bursch Law PLLC
9339 Cherry Valley
Ave SE, #78
Caledonia, Michigan 49316
(616) 450-4235
jbursch@burschlaw.com
JANUARY 2020

Counsel for Amicus Curiae

